No. 19-554

 

In THE
Supreme Court of the United States

50 MURRAY STREET ACQUISITION LLC,

Petitioner,
v.
JOHN KUZMICH, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the New York Court of Appeals

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,770 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 9, 2019.

LL

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
